No . _ _ _ __

3Jn ~be
~upreme QCourt of tbe fflntteb ~tates
Johnson v. US
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis
and was represented by appointed counsel in the United States Court of Appeals for
the Fourth Circuit.
The appointment was made under the following provision of law: Criminal
Justice Act of 1964, 18 U.S.C ยง 3006A.
Respectfully submitted this 19th day January 2021.

ยฃ;)~4~~

David Alan Brown
Counsel of R ecord

FLANNERY GEORGALIS,

LLC

Johnston Building
Suite 1410
212 South Tryon Street
Charlotte, NC 28281
dbrown@flannerygeorgalis.com
Counsel for Petitioner

